(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

BMO Harris Bank®
Cash Back Mastercard®

Credit Cards

BMO Harris
Rewards
Program Rules
SM

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

BMO Harris Rewards
Program Rules

SM

BMO Harris Bank Cash Back Mastercard
These Rules govern Cardholders’ participation in
the BMO Harris Rewards Program (“Program”).
This Program allows Cardholders to earn cash back
that may be redeemed for a statement credit.

“Cardholder” means the accountholder of an eligible
credit card (“Account”) issued by BMO Harris Bank N.A.
(“Bank”) except that for Accounts with more than one
borrower, “Cardholder” means the Primary Cardholder and
Co-Borrower, where applicable. “Cardholder” does not include
Authorized User(s). For purpose of these Rules, we may refer
to the Bank as “we”, “us” and “our” and the Cardholder as
“you” and “your.” Eligible card means a BMO Harris Bank Cash
Back Mastercard (a “Cash Back Card”) issued for personal
and not business use. Cash back earned under the Program
will be credited to the Account of the Cardholder and can
be redeemed in the form of a statement credit. Only the
Cardholder is permitted to authorize redemptions under the
Program. By using or accepting an Account, you agree to
these Rules and any changes, additions or deletions to them.
Go to bmoharris.com/pdf/credit/rewardsconsumercash.pdf
to view the most recent version of the Rules.
We issue and administer all Accounts. We manage the
Program while third party service providers (“Third Party
Service Providers”) administer the Program.
These Rules and Account transactions are also subject to
other agreements you may have with us, including your
Cardholder Agreement and other agreements governing
the Account(s) referenced in the Cardholder Documents
(“Governing Agreements”). As a reminder, your Cardholder
Agreement contains a provision that addresses arbitration

1

Credit Cards

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

of any disputes regarding your account, including your
participation in this Program. Also, your Governing
Agreements control if anything in these Rules are
inconsistent with the terms of the Governing Agreements.
The following are the general terms and conditions of
the Program and are subject to change by the Bank
at any time without notice. See the current cash back
rewards and their specific terms and conditions at
bmoharrisrewards.com.
General
1. We offer the Program at our sole discretion. We
reserve the right to change these Rules and rewards
and any fees associated with the Program at any time,
for any reason and without notice, or may modify,
suspend or end the Program, cancel outstanding cash
back or change the redemption value of cash back.
We may reverse any cash back awarded to you in
error, regardless of cause, and such a reversal may
cause you to have a negative cash balance. If your
Account is closed with a negative cash back balance,
we may charge your Account for the amount of the
cash back balance. We assume no liability for any
such changes.
2. We reserve the right to cancel your participation in
the Program, close your Account and cause you to
forfeit your cash back balance without notice in the
event of fraud or abuse of the Program or Account,
your violation of the Rules, or patterns suggesting
improper use of the Program. For the purpose of
clarification, transactions that we determine in our
own discretion are made for the purpose of abusing
the Program are not eligible to earn cash back and
we may reverse any cash back that were accrued as
a result of fraud or abuse of the Program. For further
clarification, abuse of the Program includes attempting
to earn cash back not allowed under the Program or
by making charges that are outside the scope of usual
or customary credit card usage.

BMO Harris RewardsSM Program Rules

2

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

3. We reserve the right to suspend your participation in
the Program, which may include the accrual of cash
back and the redemption of cash back for a statement
credit, if your Account is not in good standing. Good
standing means that your Account is not canceled,
past due or otherwise in default under the terms of
any agreements you have with us, including these
terms and conditions. Upon bringing your Account into
good standing, your participation in the Program will
be reinstated, but cash back previously forfeited or
eliminated will not be reinstated.
4. You authorize us (which includes, for the purposes
of this paragraph, our agents and representatives) to
contact you using automatic telephone dialing systems,
artificial or prerecorded voice message systems, email
and text messaging systems in order to provide you
with information regarding the Program and your
Account, including information about missed payments,
the suspected misuse of your Card, or general servicing
items. You authorize us to make such contacts using
any telephone numbers (including wireless, landline
and Voice over Internet Protocol numbers) you have
supplied or will supply to us in connection with your
Account or any other account you may have or will
establish with us. You understand that anyone with
access to your telephone may listen to or read the
messages we leave or send you, and you agree
that we will have no liability for anyone accessing
such messages. You further understand that, when
you receive a telephone call or text message, you
may incur a charge from the company that provides
you with telecommunications, wireless and/or data
services, and you agree that we will have no liability
for such charges. You expressly authorize us to monitor
and record your calls with us. You agree that you
are the owner and/or primary user of any telephone
number or email address you provide to us and that
you will notify us if this is no longer true as to any
such telephone number or email address.

3

Credit Cards

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

5. You are responsible for any tax liability related to
participation in the Program or as a result of cash
back earned or redeemed.
6. The Program is void where prohibited by law.
7. We are not responsible for administering the Program.
We are not responsible for errors or omissions in any
Program document. We are not liable to you for cash
back issued under the Program.
8. You agree that neither us, our affiliates, nor Third
Party Service Providers is liable for claims that you
may have against us, our affiliates, or Third Party
Service Providers arising out of or in any way relating,
directly or indirectly, to participation in the Program
and its rewards.
9. Capitalized terms used and not defined herein have
the definitions provided in Governing Agreements.
10. We reserve the right to interpret Rules and Program
policies and will be the final authority on cash back
qualifications.
Earning Cash Back
1. Base Earn: You will earn one base percent (1%) cash
back for every one United States dollar ($1.00) in
eligible purchases rounded to the nearest whole
dollar (i.e., a $5.49 purchase would round down to
$5.00 while a $5.50 purchase would round up to
$6.00 prior to being scored) made on an eligible
card. There is no cap on the amount of base cash
back that can be earned.
2. Category Bonus Earn: You will earn an additional
one bonus percent (1%) cash back for every one
United States dollar ($1.00) in eligible gas and/or
grocery purchases, rounded to the nearest whole
dollar made on a Cash Back Card. Bonus earn is only
available on the first $2,500 of net eligible gas and/
or grocery purchases within a calendar quarter. After
the $2,500 cap is met within a calendar quarter, you
will earn at the base rate in those categories until
the next calendar quarter begins and the cap is reset.
BMO Harris RewardsSM Program Rules

4

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

We may offer you opportunities to earn bonus cash
back on certain categories of eligible purchases, such
as gas and grocery purchases. The networks that
process your transactions provide transaction category
codes, and in turn, merchants determine which
codes to use when you make a purchase from them.
However, merchants may not use codes that identify
certain transactions as eligible purchases. Further,
not every purchase you make at certain merchants
will qualify as an eligible purchase. For example, a
purchase made other than fuel at a gas station may
not be an eligible purchase. Because BMO Harris does
not control the categories merchants use to identify,
BMO Harris cannot guarantee that each Eligible
Purchase will accrue bonus cash back.
3. All cash back is earned in United States dollars (USD).
4. Net purchases are the dollar value of goods and
services purchased on an Account minus any credits,
returns or other adjustments as reflected on monthly
billing statements.
5. All credits and/or returns will result in a debit of the
same amount of cash back that was originally earned.
6. Negative cash back will post if your returns or credits
exceed your purchases for the monthly billing period.
7. Eligible purchases generally include purchase
transactions on your statement. However, transactions
that are not eligible purchases for purposes of cash
back calculation include but are not limited to:
cash advances, balance transfers,cash advances
designated as purchases, which includes for clarity,
purchases that can be converted to cash or cash
equivalents, gift cards (including store gift cards),
prepaid cards or cards that can be used for cash-like
or quasi-cash transactions, traveler's checks, money
orders, purchases of foreign currency, convenience
checks, wire transfers, ATM withdrawals. Fees and
card-related charges posted to an Account, including
late payment fees, annual fees and interest charges
as contained in the applicable Governing Agreements
5

Credit Cards

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

also are excluded from the calculation of eligible
purchases. Additional transactions excluded from
calculation of eligible purchases include: gamingrelated transactions (including, without limitation,
gambling chips, off-track wagers or lottery ticket
transactions), tax payments, purchases of digital
assets, and any unauthorized charges or transactions,
and any airfare or hotel reservation booked directly
through a third party booking service. For further
clarification, transactions that we determine in our
own discretion are made for the purpose of abusing
the Program are not eligible to earn cash back and
we may reverse any cash back that were accrued as a
result of fraud or abuse of the Program or Account.
8. If the Account is closed for any reason, the Account
will no longer be able to accrue cash back and all
accrued cash back not redeemed for that Account
will be available to redeem for 90 days as long as
Account is closed in good standing.
9. Cash back is not available for redemption until it
is posted on your monthly billing statement and
transferred to your available cash balance. You may
access BMO Harris Rewards online by logging in
at bmoharris.com then clicking “View & Redeem”
from the Account details screen. Your available cash
balance is also available by calling the BMO Harris
Rewards Redemption Center (“Redemption Center”).
10. Earnings from any Account or program may not
be combined with cash back earned from a Cash
Back Card.
11. Cash back is not considered your property and
cannot be transferred to any other Account, person
or entity. Cash back has no cash value. If we learn of
the death of the cardholder on an account without
a co-borrower, we may automatically redeem any
available cash back as a statement credit to the
account that earned the cash back.
12. A request to change your current card type (“Current
Card”) to a different card type (“Product Change
BMO Harris RewardsSM Program Rules

6

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

Card”) without opening a new Account is a Product
Change request. Product Change requests are subject
to terms and conditions provided with a Product
Change request as well as any applicable Governing
Agreements authenticated or logged in.
Transferring Cash Back:
i. If your Current Card is a Cash Back Card and your
Product Change Card is a Rewards Card that
earns points, your available cash back balance
will be converted into points by multiplying the
balance by 100 and transferred to your Product
Change Card. For example, if your Current Card
has an available cash back balance of $125 at
the time of Product Change, we will multiply
$125 by 100 and transfer 12,500 points to your
Product Change Card.
ii. If your Current Card earns points (not cash back)
and your Product Change Card is a Cash Back
Card, your available points balance will be
converted into cash back by dividing the point
balance by 100. For example, if you have an
available points balance of 12,500 points at the
time of Product Change, we will divide 12,500 by
100 and transfer $125 cash back to your Product
Change Card.
iii.If your Current Card earns points or cash back
and your Product Change Card does not earn
points or cash back, you will have 90 days after
the date of Product Change to redeem any
available points or cash back on your account.
iv. If you request a Product Change, you may
experience a temporary delay in accessing your
available points or cash back while we process
your request.
Earning Cash Back:
i. The base and bonus earn rates for your Product
Change Card will begin with transactions that
post after the date of Product Change.
7

Credit Cards

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

Bonus Cash Back:
i. If you complete a Product Change from a
Rewards Card to another Rewards Card, your
Anniversary date does not change. If you
complete a Product Change from a non-Rewards
Card to a Rewards Card, your Anniversary date
will be the date of your Product Change date.
ii. Unless otherwise specified, a Product Change
Card is not eligible for an Introductory Bonus.
Redeeming Cash Back
You may redeem cash back for a statement credit that
may be applied to an eligible account you designate at
the Bank. Rewards redeemed to a BMO Harris Checking,
Savings, or Money Market account will be credited to
that account 7-10 business days after your redemption
request.
Redemptions may be considered taxable income from
BMO Harris Bank in the tax year in which you redeem
the points. BMO Harris Bank may be required to send
you a Form 1099-MISC for the year in which you redeem.
Please allow up to 7 to 10 business days after redemption for the statement credit to post to your Account.
Statement credits will not be applied towards reducing
the minimum payment due on your Account. Statement
credit denominations and point valuations specific
to your Rewards Card can be viewed by logging in to
bmoharris.com and clicking View and Redeem from the
Account Details screen. In the case of pooled accounts,
the statement credit will be applied to the Account that
is logged in at the time the statement credit redemption
is made.
Rev. 07/21

BMO Harris RewardsSM Program Rules

8

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

Notes

9

Credit Cards

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

Questions?
Online
Log in at bmoharris.com then click "View and
Redeem" from your Account details screen.
Online access is available 24 hours a day,
7 days a week to view your available
balance or make a redemption.
Phone
Call the Redemption Center at
1-800-610-8987 for rewards program information.
Redemption Center hours of operation
are from 8 a.m. to 8 p.m. Central Time,
seven (7) days a week, excluding
federal holidays.

BMO Harris RewardsSM Program Rules

10

(June 22, 2021 / 09:06:08)

121264-1_BMO-50360072_RewardProgramRules.pd

Talk with us

1-800-610-8987
Learn more

Mastercard® and the Mastercard Brand Mark are registered
trademarks of Mastercard International Incorporated.
Banking products and services are subject to bank and credit
approval and are provided by BMO Harris Bank N.A. Member
FDIC. BMO Harris Bank® and BMO Harris® are trade names
used by BMO Harris Bank N.A.
©

2021 BMO Financial Group.

50360072

07/21-0177

F03-W650-1-0621

bmoharrisrewards.com

